QUESTIONS PRESENTED FOR REVIEW
1. Can The Supreme Court of New Jersey Deny Certification on
November 20, 2020, only after petitioner Moretti was found
incapacitated (Ber-P-521-18) after a trial at which Moretti was not
allowed to choose his own attorney, while appointed counsel Lawrence
Meyerson refused to produce the only expert defense witness, Joel
Federbush.?
2. Can the Borough of Paramus bypass the New Jersey Tax Court, fire
Moretti as a Paramus Election Judge and High School teacher, in
order to demolish 197 Alpine drive, and put up a $2,500,000 home,
typical of nearby houses?
3. Can the Probate Court rely upon the MMSE test for a finding of
incapacity of a Senior Citizen, while using tax appeals to move forward
on the basis of factual hearings?

iii

Statement of the Case
Petitioner Moretti is threatened with loss of his home of six decades, despite
the state courts failure to try cases involving the bank hold-up at Citibank, the
Kefauver Crime crusade, and multiple unsolved murders. The attached “Index of
Notice of Issues in Record Below” substantiates this.
Petitioner testified he was born in the county jail prematurely, in November,
1938. This was trumped by the surveillance of the Morettis stemming from the 1931
murder of William J. Brady, taxi fleet owner (River St., Hackensack, N.J.) The
- military added to this surveillance by attaching petitioner to the Morettis, and
marching him off to war (described in Upton Sinclairs Lanny Budd series.).
The N. J. Supreme Court remembered that John E. Selser represented Moretti
in the Brady matter, and published his criminal contempt at 15 N. J. 393, May 17,
1954. The N. J. courts follow the high court.
Petitioner’s historical studies at Fordham College advised of the creating of the
Department of Defense, and the signing into law of the National Security Act by
Truman in 1947. But Truman was anti-communist, lumping together Russian
~ civilization with the Stalin regime. This military control of the civilian police in
America is evident at the Calvin Collidge firing 1000 Boston policemen, who were on
strike after WWI. This issue is now before us with the attempt to appoint General
Lloyd Austin to head the Pentagon'. He has not been separated from military service
for seven years.
Without an understanding of the political economics from Karl Marx to
Georges Sorel, no amount of time will provide for the expertise necessary to command
iv

the Department of Defense. Petitioner attempted to correction that, due to his
psychology degree from the G. W. U. New Jersey does not want petitioner to teach
despite the $200,000,000 per year allocated to the Boards pf Education of Hackensack
and Paramus. Who needs a student who studied Slavic literature at G. W. U. on the
faculty?
During WWII petitioner Moretti may have visited the King of England, the
pope at the Vatican, and Carl Jung in Switzerland. But his visit to the KGB trumped
all that. Disabilities owing to the resulting impairments are ignored.
The Pentagon lost $6.5 trillion in 2015. The War Against Terrorism, the War
Against Crime, and the avoidance of a balanced budget are now an issue.
Why would Truman take eight-year-old petitioner with him on the 1948
Truman Special Campaign Train, except to win a democratic election against the
Republican challenger, Thomas Dewey. Dewey knew the laws which protected
criminal defendants

To Truman, Dewey was soft on communism, as was Vice-

President Wallace.
Petitioner Moretti spent five years in Washington, D.C. at G.W.U., and holds
a'law degree from New York Law School. Why allow him to earn a living? Maybe he
too is soft on communism?

v

Index of Notice of Issues in Record Below
App. 16.

Premature childbirth in Hackensack, N. J.
Unsolved murder of Abe Reles, November 12, 1941, Half-Moon House.

App. 17.

Prosecution of criminals according to an angelic super-class.

App. 18.

Patton sent child Moretti to the KGB. Child-soldiers.
Visit to Carl Jung.

App. 20.

N. J. Tax Court Appearance. Judge Andresini: Moretti has applied for a
100% Veteran’s Exemption.

App. 21.

Moretti: Paramus will not employ me...I was working as an Election
Judge and, of course, I was discharged as that, because they (Paramus)
does not want me to earn money.

App. 23.

I was inducted into World War II.

App. 25.

Franklin Roosevelt’s position, which is not a judicial position, it is an
Executive Presidency. So we have a branch conflict with regard to
statutory interpretation in times of war.

App. 26.

N. J. Tax Court’s Andresini: Did you serve ... in that time period - 19391946? Moretti: The whole period. Andresini: You were in service during
the Cuban Missile Crisis? Moretti: Yes.

App. 28

Moretti: I am certainly connected as to an implanted heart.

App. 40.

Moretti: I was at Hyde Park (New York) with Roosevelt on repeated
occasions.

App. 41.

Moretti: My birth in the County Court House of Hackensack. And my
mother was executed at that time, so I was bought up as a premature
child in the first trimester.
Moretti: The issue, the Supremacy clause...is a substantive issue. It was
clearly a matter of wide reportage.

App. 42.

Moretti: I’m a law school graduate of over 35 years...billable hours
would be in the tens of millions of dollars
vi

App. 46.

Lamatina: He (Moretti) states he was involved in World War II as an
infant. (See Exhibit B: Appellate Division Brief... He states that a
Homer Device was installed in child Moretti while under-going torture.
(See Exhibit B, Appellate Division Brief...

App. 52

Lamatina. The home is worth in the range of $650,000 to $750,000. If
plaintiff is allowed to foreclose, Mr. Moretti will lose his home without
receiving any of the substantial equity.

App. 57

Responding to psychiatrist Joel Federbush: Moretti. I had access to the
White House. And so I worked with his (the President’s) associates, his
law clerks... These murders were my concern., (The Morettis)
essentially because of the serial murder nature of the issues.

App. 65.

Federbush Consultation: (Moretti): That herpes was coincident to our
coming in to this consultation (ordered by Judge DeLuca). And the
herpes was contagious because the blisters were at, the point of popping.
And the blisters were apparently the result of chicken pox which I had
experienced, 1946 or in 1948.

App. 69.

Moretti: I put out a raging fire, by the way (at 390 Park Street,
Hackensack, N.J.) Dr. Federbush: By yourself? Moretti: I was able to put
out the fire, which otherwise would have burned the entire house down
within about an hour.

App. 76.

Moretti to Federbush’s Assistant: The houses I was living in before, one
was on thirty-two acres, with six buildings, and the other was on forty
acres, with several buildings (Lincroft, N.J.)

App. 79.

Keith Bonchi, Esq., GMS Law, August 14, 2018: This is the foreclosure
of a tax sale certificate owned by Effect Lake. Defendant (Moretti) has
filed...a Contesting Answer.

App. 110.

Appeal to the New Jersey Supreme Court, In Re Case P-521-18, July 11,
2020: The Roosevelt Administration directed child Sal Moretti to the
Vatican in 1941, where Pope Pius XII attempted to enlist him into the
priesthood. Clearly religious issues obtain within.

App. 111.

Moretti: The judge (James J. DeLuca) then proceeded to personally
select jurors in secret to produce the verdict the county demanded —
forfeiture.
vii

App. 112.

Moretti: The undersigned was born in the winter of '938. The birthdate
was advanced to May 28, 1940 to remove the taint of illicit childbirth [in
the Bergen county jail] during Kristillnacht.

App. 113.

Letter to the New Jersey Supreme Court, July 11, 2020
Moretti: After thirty-nine years of on-site superintendent services,
Moretti was ousted from that property (Park Court Apartments, 391395 Park Street, Hackensack, N.J. 07601) A daring Citibank robbery
(Citibank at corner of Broadway & Canal Street) and sabotage and shut
down the property, sold as condos for $4,000,000. Moretti received
nothing in April, 1997...Moretti claims fraud.

App. 114.

When Moretti requested polling the jury, the judge simply refused. It is
upon this “police trial” that the O. P. G. [Office of Public Guardian]
sought enforcement of rights.

App. 118.

Continuing, July 11, 2020 letter to the N. J. Supreme Court. Moretti:
Timothy Sullivan (former Bergen County judge) is now listed as a lien
holder on Moretti’s property.

App. 121.

To N. J. Appellate Division, September 14, 2020. Moretti: Estes
Kefauver telecast his anti-Italian crusade.

App. 127.

Moretti’s Brief. Point Four. Meyerson, the Self=Appointed Attorney for
Moretti, was Ineffectual as Counsel.

App. 133.

Citibank Complaint. Moretti... opened a checking account at Citibank
Branch No. 11 on May 28, 1993, wherein he deposited over $145,000 of
funds from May 28, 1993 to August 8, 1994. [the closing of the account]

App. 147.

Moretti’s former house at 390 Park Street, Hackensack was sold to
Reynolds for the sum of $165,000.

App. 168.

Innocent Owner’s Defense. (App. 175 - Moretti’s Renault after ax attack
at Park Court Apts. App. 130. Oct. 3, 1992 Article on Susan Stedtler’s
Cocaine Arrest.

App. 198.

Moretti: A $900,000 offer was made by Dr. Coccoziello to buy Park Court
Apartments, 391-5 Park St., Hackensack.

viii

Table of Contents
1. Questions Presented for Review.

iii

2. Judgments At Issue in This Petition For Certiorari
A. Decision by the Supreme Court of New Jersey. App. 1.
B. Appellate Decision, Moretti v. Borough of Paramus. App. 2.
C. Appointment of Guardian Ad Litem. App. 43.
D. Tax Sale and Summons To Foredose. App. App. 11.
E. Order to Undergo Psychiatric Testing By Drs. Dang and
Brozyna. App. 54.
F. Appointment of Lamatina Guardian of Moretti’s Estate, Ber-P52L18, App. 95.
G. Sale of Moretti’s House, Ber-P-121-20, App. 105.
H. Judge James J. DeLuca’s Order to Vacate Home, App. 108.
- =-

3v-Arguments in favor of Granting The Petition For Certiorari.
A. Relevant Deaths to the Cause of Action.

1
7

B. Relevant Books on History, and Law Discounting Incapacity.
9

/

ix

Salvatore Moretti, Pro Se
197 Alpine Drive
Paramus, New Jersey 07652
slvtrmoretti@gmail.com
201-314-7255
SUPREME COURT OF THE UNITED STATES
WASHINGTON, D.C.

SALVATORE J. MORETTI,
Petitioner
vs

ARGUMENT IN FAVOR OF
GRANTING THE PETITION
FOR CERTIORARI

BOROUGH OF PARAMUS,
Respondent
Petitioner Salvatore Moretti secured the legal services of Robert Hollis, Esq.
of 90 Main Street, Hackensack, N. J. Hollis lost my cases, but he was disbarred.
Petitioner secured the legal services of Edward Evans, Esq. of S-10 Route 17,
Paramus, N. J. He too lost my case, and lost his building.
By that time, Petitioner graduated from the New York Law School. He hoped
to represent himself under a sole proprietorship. He ran against Frank C. Zisa for
city council. [Fn. l. Zisa won, supported by Stephen Moses, who married Bergen’s
assignment judge.]
Moretti was born in 1938 during Kristillnacht in the Bergen County jail,
during his birth mother’s first trimester. She was executed, leaving petitioner in an
incubator for six months until his lungs developed so he could breathe the air. This
attracted Roosevelt attention due to Eleanor and Doris Duke visiting children in
distress.

1

Petitioner researched in his family archives, learning that attorney John E.
Selser represented William Moretti in 1931. [Fn. 2. In re Selser, Supreme Court of
New Jersey, 15 N. J. 393, 105 A. 2d. 395. At issue was the death of the Railroad
Avenue, Hackensack death taxi service owner, William Brady. Selser was found in
contempt of court. One Superior Court judge told petitioner his negative decision
was due to the “law of the case for Morettis.”
Petitioner was sitting on his front lawn in Hackensack when Michael
Mordaga walked up to Park Court Apartments. Petitioner said “Hello,” and
Mordaga placed him in a hammer lock. Mordaga was fresh out of high school, but in
uniform. Years later petitioner read Jean Rimbach’s Record newspaper article
stating Mordaga was involved in a $100,000 kickback in the Teterboro jet crash. On
February 2, 2005, a jet crashed into the Strawberry plant across Rte. 46. Lawyer
Weiner paid Mordaga $100,000; Weiner died in 2015. Mordaga left the Prosecutor’s
Office in 2007, along with John Molinelli, who was removed by Gov. Chris Christie.
Molinelli attended N. Y. Law School with petitioner. [Fn. 3. Frank Lagano was shot
to death April 12, 2007 in front of the Seville Diner, in East Brunswick, N.J.;
Mordaga had revealed Lagano as an informant. By that time, Mordaga was living in
a $1.3 million home in Paramus.]
On October 18, 1989, Mordaga chased Collier and Jones into Apartment 312,
370 Park St., Hackensack, breaking down the door; Mordaga arrested them for
narcotics. The Appellate Division ruled against the break-in. The Supreme Court of
N. J. reversed, New Jersey v. Leo R. Jones, 143 N.J. 4.

2

On January 31, 1992, Michael Mordaga signed a complaint against Eric
Winfield for narcotics use at petitioner’s Park Court Apartments. Petitioner lived
across from Stedtler’s apartment, 395-D. On May 8, 1992 at 10:30 P.M. Susan
Stedtler was arrested in her apartment. Petitioner had been knocked unconscious
twice in the courtyard while superintending Stedtler’s apartment. When petitioner
attempted to intervene with Ellen Koblitz (she was public defender to Stedtler), he
was refused. Stedtler was sent to Edna Mahan prison away for three years.
Dr. Coccoziello, the owner of 370 Park Street, Hackensack’s 72 unit
apartment building offered to buy Park Court for $1,000,000. He was run out of the
city by hundreds of fire alerts, each costing him $200.
On June 19, 1993 at 6:48 P.M. petitioner was talking to Bernard Fayehun, a
tenant at 390 Park St. Killian Osuji of Apt. 116, 370 Park Street, drove up and
punched petitioner in the head, and then grabbed Fayehun. Petitioner filed a
complaint against Osuji in the Bergen District Court, No. 012915-93. Fayehun was
attacked again, his hand being repeatedly injured [he was an auto mechanic].
Appearances resulted in Hackensack’s Judge Louis Dinice recusing himself. Other
judges were unable to receive testimony from Fayehun, who repeatedly landed in
hospitals.
After the Newark U. S. District Court denied the Lagano appeal, the U. S.
Court of Appeals [Case No. 13-3232, Estate of Frank P. Lagano v. Bergen County
Prosecutor’s Office, and Michael Mordaga, et al] in Philadelphia overturned that

3

judgment, returning the case for trial. Petitioner conferred with Erik Kleiner, who
handled the matter after Lagano lawyer died.
When the foreclosure of Park Court was before Sheriff Ciccone, petitioner
submitted reports to the foreclosure unit.. One described a bank robbery at the
Citibank on Canal Street & Broadway, in N.Y.C. On August 8, 1994, Petitioner was
robbed of the payment for the Hackensack Water Company bill - from a judgment
by Judge Ellen Koblitz, who replaced Judge Ralph Polito as Presiding Judge of
special civil part.[App. 135] Ciccone refused a Sheriffs Sale. Ciccone suffered bad
press, and was removed from office amid much ado; a substituted sheriff foreclosed.
Incidents Petitioner reported to Ciccone involved house fires at 111 Passaic
Street (March 10, 1978), and 115 Passaic Street, Hackensack. Both fires appeared
the result of arson. A barking dog kept petitioner’s tenants up for three years. At
Least six houses on Park St. were hit by major fires, including 390 Park St.
Ciccone’s relatives faced criminal charged due to a house fire. Ciccone had to confess
—

selling sheriffs badges, and that he was gay. [March 31, 2001, N. Y. Times]
John J. Fahy, a former Bergen County prosecutor, committed suicide July 18,
2013: He was a 58 year old Seton Hall Law graduate. His body was found under the
Route 17 overpass in East Rutherford, N. J. near his home. N. J. Governor James
McGreevey was forced out of office in 2004 - admitting an affair with Mr. Cipel.
Governor Jon Corzine was seriously injured in car crash driving from Trump
Taj Mahal to Drumthwasket April 12, 2007.

4

Abe Reles fell from the sixth floor of the Half Moon Hotel in Coney Island. At
the N. Y. Law School, a “lawyer” threatened to throw petitioner me out of the sixth
floor of A-Building. He refused to close the window despite freezing weather.
Judges and legal staff are required to follow protocol, a.k.a. law of the case.
The picture emerging in the appended documents show that a eighty year residents
is being victimized by doctors (the MMSE Test), due to such questions as “who the
president of the U. S.” This psychiatric test cannot solve all New Jersey’s problems.
Petitioner repeatedly stated to opposing attorneys that after meeting F.D.R.
at Hyde Park, N.Y., he traveled to Europe during WWII. He met Dr. Carl Jung
(Swiss psychiatrist); Bertrand Russell (English mathematician), Martin Heidegger
(German philosopher, Being and Time. Sein und Zeit). Jean Paul Sartre, Being and
Nnthinfmpss. Pope Pius XII, Mussolini and Hitler, etc. This was ignored in the
proceedings below.
Myerson’s defense before Judge DeLuca was meaningless - he did not crossexamine any psychiatrist, and did not call Dr. Joel Federbush. Moretti’s family
members were executed due to failure to perform suitably under contempt of court
rulings. The state judiciary relies on the criminal contempt by Selser. Law schools
review cases with little review of historical relevance, nor of international conflicts.
^Lawyers—emerge with a vocabulary, but no4)ractical know how.------------------------The death of F. D. R. was misreported as polio, while ghillian-barre syndrome
is more likely. Did Truman gain the presidency just to drop an atomic bomb? Why
was petitioner aboard the Truman Special in 1948 to defeat Dewey? Truman did not

5

attend college or law school, as did F.D.R. and petitioner. Stalin operated under a
single party system, the Bolshevik party; F.D.R. faced mid-term elections.
The 1891 murder of police chief Henderson in New Orleans, Louisiana, until
the 1950’s Kefauver Crime Hearings, an anti-Italian, anti-Jewish “Murder Inc.”
legal problem haunts petitioner. He was used as a magnet to draw in for the kill
members of the Murder, Inc. gang.
The N. J. courts refuse to consider the U. S.S. R. The people die due to the
murder of Tsar Nicholas and his entire family on the night of July 16-17, 1918.
WWI was begun with the assassination of the Archduke Ferdinand and his wife.
June 28, 1914 in Sarajevo.
Petitioner’s family was tried during the economic collapse of the N. Y. Stock
Exchange in 1929. Consider s the following from Valenstein Brain Control:
Men ought to know that from the brain and from the brain only arise our
pleasures, joys, laughter, and jests as well as our sorrows, pains, griefs,
and tears.... It is the same thing which makes us mad or delirious,
inspires us with dread and fear, whether by night or by day, brings
sleeplessness, inopportune mistakes, aimless anxieties, absent
mindedness and acts that are contrary to habit....
Hippocrates (c. 400 B.C., The Sacred Disease.
The economic loss of the petitioner’s property in Deal, N.J., the 40 acre farm
at Lincroft, N.J., the apartments in Hackensack, N.J., and the house on Alpine
Drive, Paramus, exceed $9,000,000. Business losses by family members are much
more. Petitioner hereby seeks acceptance of his Petition for Certiorari.
Date: December 1, 2020.
Petitioner

AmM/s /-

Word count - 1479

Z

Salvatore J. Moretti
6

